:
4

f

No. 20-972

IN THE

SUPREME COURT OF THE UNITED STATES

IBEABUCHI, IKEMEFULA CHARLES
(Last, First, Middle)

Petitioner

V.
National Records Center, Missouri
U.S. Dep't of Homeland Security
U.S. Dep't of State

Respondents

On Petition For Writ Of Certiorari To The United States Court Of Appeals For The
Ninth Circuit.
Petition For Rehearing
IBEABUCHI, IKEMEFULA CHARLES
USCIS#: 070675261; ARC#: 054108362
NBC*00659..., granted/processing
CoreCivic
1705 East Hanna Road
Eloy, AZ 85131-9612
Telephone: (520) 464-3900 Ext. 23268

Cover-Page

Pro Se

RECEIVED
APR 2 1 2021

1?

!

t

S'

? '

GROUNDS FOR PETITION FOR REHEARING

1. Whether or not, the Respondents, Transmission of 41 Pages of the 84 Pages of
the previously, Exempt Records to the Petitioner on, February 1, 2021, pursuant to
the Petitioner's Request inter alia this Appeal was an Intervening Circumstance of
Substance to grant the Petition?

(i)

'■')

CONTENTS

PAGE

MEMORANDUM OF POINTS AND AUTHORITY

1

STATEMENT OF FACTS

2-3

ARGUMENT

4-6

CONCLUSION

7

CERTIFICATE OF COMPLIANCE

8

CERTIFICATE OF SERVICE

9-10

APPENDICES:

APPENDIX: A. The Supreme Court of the United States Office of the Clerk
Washington, D.C. 20543-0001, March 22, 2021's, Notice by the Clerk of the Order
denying the Petition for a Writ of Certiorari in, No. 20-972, to Prisoner ID
070675261, instead of ID 654108362 (Adjusted), returned for a Substantial Relief.

APPENDIX: B. The Petitioner's, April 21, 2015's notarized (FOIA/PA) Request, with
Alien Registration Number and Subject of Record's A-Number as, #070675261.
and the August 13, 2015's NRC2015060559 Transmission Letter.

APPENDIX: C. The Petitioner's, October 13, 2020's notarized (FOIA/PA) Request,
with Alien Registration Number and Subject of Record's A-Number as,
#654108362. and the February 1, 2021's NRC2020155226 Transmission Letter.
(ii)

n

MEMORANDUM OF POINTS AND AUTHORITIES.

The foregoing, Petition for Rehearing is submitted pursuant to the Supreme Court
Rule 44 and by the Intervening Circumstances listed in the Appendices. Further,
the Petition is supported by INA ss 241(a)(5); Robinson v. Cal.. 370 U.S. 660, 66667 (1962); 5 U.S.C. ss. 552(b);Minier v. CIA. 88 F. 3d 796, 800 (9th Cir. 1996)
Fiduccia v. U.S. Deo't of lustice. 185 F.3d 1035, 1043 (9th Cir. 1999), respectively,
at-law.

1.

<3
STATEMENT OF FACTS.

On, March 22, 2021, the Clerk of this Court issued a Notice, stating, that, "the
Court today entered the following order in the above-entitled case: The petition
for a writ of certiorari is denied." (See, in, Appendix: A.)

Accordingly, the Petitioner invokes this Court's Rule 44, Petition for Rehearing, for
the following Intervening Circumstances of Substantial Merit for the Consideration
of the Court.

1. On, October 13, 2020, the Petitioner submitted a duly notarized Freedom of
Information/Privacy Act Request to the Respondents, for his A-File (Exempt
Records) while the 90days of this Court's Rule to file a Petition for a Writ of
Certiorari, was in, Extant. (See, in, Appendix: C.)

2. The Petitioner, also submitted as his Alien Registration Number and the Subject
of Record Number as required (see, e.g., in, Page 2 of 5 and in, Page 5 of 5 of the
USCIS Form G-639) to his Replaced Alien Resident Card Number: 2B041654108362
which is due for expiration on, August 24, 2026.

3. On, February 1, 2021, the Respondents, transmitted the Petitioner's Records,
with 41 of the 84 Exempt Records, and of whose Matter was on Appeal before this
2.

■1

Honorable Court.

4. Besides to the Point of the Petitioner's Legality as addressed, therein by the
Alien Resident Number and Subject of the Record's Number and, pertaining to the
Exempt Records, the Respondents', inherent Concession, should form a basis for
the Petitioner's Release from the Respondents Custody, since, September 23,
2020 and a Grant of the foregoing, Petition, or in the alternative a Dismissal is
warranted upon the Parties Disposition, at-law. (See, SCR Rule 46)

3.

n

ARGUMENT

1.

The Intervening Circumstances of a Substantial or Controlling Effect or to

other Substantial Grounds not previously presented.

An Intervention occurred on, February 16, 2021, when the Petitioner received his
Freedom of Information and Privacy Act Request from the Respondents, whose
Receipt contained such Controlling Effect on the Appeal, that is, the right to the
Exempt Records under 5 U.S.C. ss. 552.

The Respondents Concession to Forty One (41) of the Eighty four (84) Pages of the
Previously Exempt Records is an Intervening Circumstance of which the Court's
Decision should be reheard.

Further, the Petitioner was arrested by the Respondents on, September 23, 2020
for a Status Offense of ILLEGAL REENTRY, in the U.S. after an Order of Removal
was issued on, October 5, 2004. By far to the Petitioner's expired status, the
Respondents conceded (see, e.g., in, Appendix, C, at Pages 2 and 5) to the
Petitioner's Alien Registration Number and Subject of Record's Number, therein,
which was not the expired Number (See, in, Appendix: B.). See, INA ss 241(a)(5)
restricting, Reinstatement of Removal Order to the Class of Petitioner, who were
not removed qua, Executive Order No: 99-F-11247. but, were adjusted to Legal
4.

0

Status. (Citing, the April 1, 2015's, United States Citizenship and Immigration
Services' (USCIS1) Approbation on, Form 1-539 Application to Extend/Change
Nonimmigrant Status; Number: IOE7688587967 and the April 14, 2015's United
States Department of States' (U.S. DOS') Approbation on, Nonimmigrant Visa
Number: 47456, in, Buttress, therein, at-law.)

Thus, the Petitioner's Detention, poses a Violation of the Federal Law to which this
Appeal must be reheard and for a Constitutional Challenge to the Eighth
Amendment for Cruel and Unusual Punishment. Far and wide, the Petitioner did
not reenter the U.S., illegally, ergo, the Respondents are guilty of the charged
Robinson Defense. See, e.g., in, Robinson v. Cal.. 370 U.S. 660, 666-67 (1962)
which, states that,
the Prohibition against Cruel and Unusual Punishment is
applicable to the States through the Fourteenth
Amendment.
Accordingly, the Petitioner requires further, Attention to the vacillating
Manumission, if this Petition, here, were granted.

2.

The 5 U.S.C. ss. 552(b).

The Respondents should had divulged all Exempt Records. Because, the above
Title expounds on the Issue, the FOIA requires a disclosure of all Agency Records
5.

at the request of the Petitioner after a thorough search has been conducted. In
that, Exempt Records is not stinted to the Subject of Record's request.

Accordingly, 41 Pages of the 84 Pages of the announced, Exempt Records is in
violation of the Statute, above mentioned. See, e.g., in, Minier v. CIA. 88 F.3d 796,
800 (9th Cir. 1996) stating, that,
Once a search has been conducted, FOIA requires
disclosure of all agency records at the request of the
public unless the records fall within one of nine narrow
exemptions.
Therefor, the Petitioner's Subject Identification as verified by the Respondents for
Record Request is tantamount and not barred by the "Nine narrow Exemptions"
especially, by the Partial Receipt thithered to him.

See, also, in, Fiduccia v. U.S. Deo't of lustice. 185 F.3d 1035, 1043 (9th Cir. 1999)
stating, that,
the Government must "provide enough Information,
presented with sufficient Detail, Clarity, and Verification,
so that the Requester can fairly determine what has not
been produced and why, and the Court can decide
whether the Exemptions, claimed justify the Nondisclosure."

For these Reasons, this, Matter should be reheard for the Controlling Effects, not
previously, presented before this Court.

6.

-t

CONCLUSION

Based upon the Foregoing, the Petitioner, respectably, requests that this Court
grants his Petition.

Respectably submitted, this

day of

IIBEABUCHI, IKEMEFULA CHARLES
Petitioner in Pro Se Status, at-law.

7.

i

2021.

<5

*

CERTIFICATE OF PARTY UNREPRESENTED BY COUNSEL

The Petitioner, certifies that, the foregoing, Petition for Rehearing in, No: 20-972,
which was received on, March 22, 2021 is due on, April 16, 2021 with apposite
Filing Fees of Two Hundred ($200.00) Dollars and is submitted, pursuant to the
Word Limits, and do not exceed the Three Thousand (3, 000 ) Words as required
in, the Supreme Court Rule 33.1 (g), (xiii) to wit: Petition for Rehearing (Rule 44)
and that, the Petition for Rehearing, stated, Grounds, that are Brief and Succinct
and are Limited to the Intervening, Circumstances of Substantial or Controlling,
Effect or to the Other Substantial Grounds that are not previously presented.

The Unrepresented Petitioner, further, certifies that, "the Petition for Rehearing is
presented in Good Faith and not for Delay” as required in, Rule 44.6 and thus
declares in such Compliance. (See, 28 U.S.C. ss. 1746)

IBEABUCHI<<IKEMEFULA<<CHARLES
Party unrepresented by Counsel

Additional material
from this filing is
available in the
Clerk's Office.

